CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing letter, described below as follows:
No. 20A84
IN THE SUPREME COURT OF THE UNITED STATES,
Republican Party of Pennsylvania, Applicant v. Kathy Boockvar, in her
official capacity as Secretary of Pennsylvania, et al., Respondents
RESPONSE IN OPPOSITION TO EMERGENCY APPLICATION FOR INJUNCTION
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic service to:
John M. Gore, Esquire
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
Counsel for Republican
Pennsylvania

Party

of

Joseph M. Cosgrove, Esquire
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
Counsel for Luzerne County Board of
Elections

Donald B. Verrilli Jr., Esquire
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
Counsel for Pennsylvania Democratic
Party, et al.

Dated: November 7, 2020

s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov

